APPENDIX TO THE PETITION FOR WRIT
OF CERTIORARI
Table of Contents
A. Superior Court Opinion, August 25, 2020……………………………………….. A1
B. Trial Court Opinion, November 2, 2018………………………………………….. A11
C. Supreme Court Order Denying Allocatur, March 9, 2021…………….……. A18

12

J-S42038-19

NON-PRECEDENTIAL DECISION - SEE SUPERIOR COURT I.O.P. 65.37
COMMONWEALTH OF PENNSYLVANIA
v.
SAMUEL EADDY
Appellant

:
:
:
:
:
:
:
:
:

IN THE SUPERIOR COURT OF
PENNSYLVANIA

No. 2399 EDA 2018

Appeal from the PCRA Order Entered August 7, 2018
In the Court of Common Pleas of Philadelphia County Criminal Division at
No(s): CP-51-CR-0001918-2010,
CP-51-CR-0006203-2014, CP-51-CR-0009727-2011
BEFORE:

OTT, J., KUNSELMAN, J., and COLINS*, J.

MEMORANDUM BY COLINS, J.:

Filed: August 25, 2020

Appellant, Samuel Eaddy, appeals from orders of Court of Common
Pleas of Philadelphia County (trial court) in three criminal proceedings that
dismissed his petitions for relief pursuant to the Post Conviction Relief Act
(PCRA).1 After careful review, we affirm.
The PCRA petitions here sought relief from violation of probation
sentences imposed in two separate criminal cases, CP-51-CR-0001918-2010
(CR-1918-2010) and CP-51-CR-0009727-2011 (CR-9727-2011), that were
imposed following his negotiated guilty plea in a third case, CP-51-CR0006203-2014 (CR-6203-2014), and from the sentence in that third case.
____________________________________________
1

*

42 Pa.C.S. §§ 9541–9546.

Retired Senior Judge assigned to the Superior Court.

APPENDIX A

APP 1

J-S42038-19

In CR-1918-2010, Appellant entered a negotiated guilty plea on October
22, 2010 to burglary,2 graded as a second-degree felony, and was sentenced
to 111/2 months to 23 months of incarceration followed by 3 years of
probation.

Appellant was paroled immediately following this plea and

sentence. In CR-9727-2011, Appellant entered a negotiated guilty plea to
second-degree felony burglary, possession of an instrument of crime, and
resisting arrest, and was sentenced on November 14, 2011 to 11/2 years to 3
years of incarceration and 2 years of probation on the burglary conviction. No
further penalty was imposed for the possession of an instrument of crime and
resisting arrest convictions. Appellant committed the burglary for which he
was convicted in CR-9727-2011 on May 3, 2011, while he was still on parole
in CR-1918-2010. As a result of the conviction in CR-9727-2011, the trial
court on November 14, 2011 sentenced Appellant in CR-1918-2010 to
confinement for the remainder of his backtime and 3 years of probation.
On April 12, 2014, Appellant committed a third burglary. On June 8,
2015, Appellant entered a negotiated guilty plea with respect to this burglary
in CR-6203-2014, in which he pleaded guilty to first-degree felony burglary
and was sentenced to 6 to 18 years’ imprisonment.

Based on Appellant’s

guilty plea in CR-6203-2014, the trial court on June 8, 2015 revoked
Appellant’s probation and sentenced him for violation of probation in CR-1918____________________________________________
2

18 Pa.C.S. § 3502(a).
-2-

APP 2

J-S42038-19

2010 and CR-9727-2011. In both cases, the trial court imposed sentences of
3 to 6 years of incarceration and ordered that these sentences were to run
concurrently with respect to each other, but that they were to run
consecutively to Appellant’s 6-to-18 year sentence in CR-6203-2014.

CR-

1918-2010 Probation Violation Order, 6/8/15; CR-9727-2011 Probation
Violation Order, 6/8/15; N.T., 6/8/15, at 24.
Appellant filed no post-sentence motion or appeals from any of the June
8, 2015 judgments of sentence. On April 14, 2016, Appellant filed a pro se
PCRA petition in CR-6203-2014. Appellant did not, however, file any PCRA
petition in CR-1918-2010 or CR-9727-2011 at that time.

CR-1918-2010

Docket Entries; CR-9727-2011 Docket Entries. On August 8, 2016, counsel
was appointed to represent Appellant with respect to his PCRA petition in CR6203-2014. PCRA counsel filed an amended PCRA petition in CR-6203-2014
on July 30, 2017. On August 1, 2017, PCRA counsel filed PCRA petitions on
Appellant’s behalf in CR-1918-2010 and CR-9727-2011 and filed amended
PCRA petitions in both of those cases on August 2, 2017.
In all three amended PCRA petitions, Appellant asserted claims that trial
counsel was ineffective for failing to order a mental health evaluation prior to
sentencing and for failing to file requested post-sentence motions and direct
appeals. On May 11, 2018, the trial court held a hearing on the PCRA petitions
at which Appellant and his trial counsel testified. On August 7, 2018, the trial
court entered orders in all three cases dismissing the PCRA petitions. The trial

-3-

APP 3

J-S42038-19

court held that it lacked jurisdiction over the PCRA petitions in CR-1918-2010
and CR-9727-2011 because they were not filed within the PCRA’s one-year
time limit.

Trial Court Order, 8/7/18 at 2 n.2.

With respect to the PCRA

petition in CR-6203-2014, the trial court found that Appellant did not request
that trial counsel file any post-sentence motions or appeals and that he did
not show that he was prejudiced by trial counsel’s failure to order a mental
health evaluation. Id. at 3; Trial Court Opinion, 11/2/18, at 4-6.
On August 13, 2018, Appellant filed timely appeals from the dismissal
of the PCRA petitions in all three cases.3 Appellant presents one issue for our
review in all three appeals:
____________________________________________

Under Commonwealth v. Walker, 185 A.3d 969 (Pa. 2018), an appellant
is required to file a separate notice of appeal in each trial court docket that he
intends to appeal and where only a single notice of appeal is filed, the appeal
must be quashed. Although Appellant included all three docket numbers on
each of his notices of appeal, the record is clear that Appellant complied with
this requirement by filing a separate notice of appeal in each docket, as each
of the notices of appeal has a different time stamp and there are separate
confirmations of e-filing for each docket, each of which shows a different time
of filing. CR-1918-2010 Notice of Appeal; CR-9727-2011 Notice of Appeal;
CR-6203-2014 Notice of Appeal; Response to Rule to Show Cause Ex. B.
While these appeals were pending, a three-judge panel of this Court filed a
published opinion in Commonwealth v. Creese, 216 A.3d 1142 (Pa. Super.
2019), holding that the listing of multiple docket numbers in a notice of appeal
does not comply with the requirement of separate appeals and requires that
the appeals be quashed even if the notices of appeal are filed in the records
of each case. Id. at 1144. Shortly thereafter, the Court granted en banc
review to decide whether Walker permits only one docket number to appear
on a notice of appeal and these appeals were held in abeyance pending the
resolution of the issue by the Court en banc. On July 9, 2020, the Court en
banc expressly overruled Creese’s determination that the inclusion of multiple
docket numbers invalidates notices of appeal that are in fact filed by the
3

-4-

APP 4

J-S42038-19

Did the lower court err by dismissing the Appellant's PCRA petition
as meritless when it found that trial counsel was not ineffective
when she failed to order a mental health evaluation prior to the
Appellant's sentencing on the three transcripts?
Appellant’s Brief at 4.
Before we consider this issue, we must address whether Appellant’s
PCRA petitions in CR-1918-2010 and CR-9727-2011 were timely filed. The
question of whether a PCRA petition is timely is a question of law over which
our standard of review is de novo and our scope of review is plenary.
Commonwealth

v.

Pew,

189

A.3d

486,

488

(Pa.

Super.

2018);

Commonwealth v. Woods, 179 A.3d 37, 42 (Pa. Super. 2017). The PCRA
provides that “[a]ny petition under this subchapter, including a second or
subsequent petition, shall be filed within one year of the date the judgment
becomes final.”

42 Pa.C.S. § 9545(b)(1).

The PCRA’s time limit is

jurisdictional, and a court may not ignore it and reach the merits of the
petition, even where the convicted defendant claims that his sentence is
illegal. Commonwealth v. Fahy, 737 A.2d 214, 222-23 (Pa. 1999); Pew,
189 A.3d at 488; Woods, 179 A.3d at 42.

____________________________________________

appellant in each docket. Commonwealth v. J. Johnson, __ A.3d __, __,
2020 PA Super 164, at *12 (filed July 9, 2020) (en banc). Accordingly,
because the record shows that Appellant filed a separate notice of appeal in
each of the dockets, his appeals fully complied with Walker and are valid. J.
Johnson, __ A.3d at __, at *11-*12; see also Commonwealth v. R.
Johnson, __ A.3d __, __, 2020 PA Super 173, at *3-*4 (filed July 23, 2020)
(en banc).
-5-

APP 5

J-S42038-19

Appellant’s judgment of sentence in all three cases became final on July
8, 2015, when the thirty-day period for filing appeals from the sentences
imposed on June 8, 2015 expired. 42 Pa.C.S. § 9545(b)(3). The one-year
period time limit for filing PCRA petitions in these cases therefore expired on
July 8, 2016.

Appellant did not, however, file any PCRA petition in either

CR-1918-2010 or CR-9727-2011, until August 1, 2017, more than one year
later and more than two years after his sentences in those cases became final.
Although Appellant did file a timely PCRA petition in CR-6203-2014 in April
2016, that filing cannot constitute a PCRA petition in CR-1918-2010 or CR9727-2011, as it bears only the CR-6203-2014 docket number, challenges
only the conviction and 6-to-18 year sentence in that case, and does not refer
at all to the probation revocations or 3-to-6 year violation of probation
sentences in CR-1918-2010 and CR-9727-2011. CR-6203-2014 PCRA Petition
at 1-3.
A PCRA petition may be filed beyond the one-year time period only if
the convicted defendant pleads and proves one of the following three
exceptions:
(i) the failure to raise the claim previously was the result of
interference by government officials with the presentation of the
claim in violation of the Constitution or laws of this Commonwealth
or the Constitution or laws of the United States;
(ii) the facts upon which the claim is predicated were unknown to
the petitioner and could not have been ascertained by the exercise
of due diligence; or

-6-

APP 6

J-S42038-19

(iii) the right asserted is a constitutional right that was recognized
by the Supreme Court of the United States or the Supreme Court
of Pennsylvania after the time period provided in this section and
has been held by that court to apply retroactively.
42 Pa.C.S. § 9545(b)(1). Appellant, however, does not contend that any of
these exceptions apply. Rather, he has alleged that his CR-1918-2010 and
CR-9727-2011 PCRA petitions were timely solely on the basis of his timely
April 14, 2016 PCRA petition in CR-6203-2014, which does not constitute a
PCRA petition in either CR-1918-2010 or CR-9727-2011.

CR-1918-2010

Amended PCRA Petition at 3-4; CR-9727-2011 Amended PCRA Petition at 34.4
With respect to the dismissal of Appellant’s timely CR-6203-2014 PCRA
petition, we review this order to determine whether the record supports the
trial court’s findings and whether its decision is free of legal error.
Commonwealth v. Mason, 130 A.3d 601, 617 (Pa. 2015); Commonwealth
v. Reaves, 923 A.2d 1119, 1124 (Pa. 2007).
Appellant’s sole claim is that trial counsel was ineffective in failing to
order a mental health evaluation prior to sentencing. To be entitled to relief
under the PCRA on a claim of ineffective assistance of counsel, the convicted
defendant must prove: (1) that the underlying legal claim is of arguable merit;

____________________________________________

We note that the untimeliness of Appellant’s CR-1918-2010 and CR-97272011 PCRA petitions was not caused by any act or omission of his present
PCRA counsel, as his present PCRA counsel was not appointed until after the
one-year PCRA time limit had already expired.
4

-7-

APP 7

J-S42038-19

(2) that counsel’s action or inaction had no reasonable basis; and (3) that he
suffered prejudice as a result of counsel’s action or inaction. Mason, 130
A.3d at 618; Commonwealth v. Presley, 193 A.3d 436, 442 (Pa. Super.
2018); Commonwealth v. Stewart, 84 A.3d 701, 706 (Pa. Super. 2013) (en
banc). The defendant must satisfy all three elements of this test to obtain
relief under the PCRA. Mason, 130 A.3d at 618; Stewart, 84 A.3d at 706.
The trial court correctly concluded that Appellant did not show that the
failure to order a mental health evaluation caused him prejudice. To satisfy
the prejudice element of an ineffective assistance of counsel claim, the
convicted defendant must show that there is a reasonable probability that, but
for counsel’s error, the result of the proceeding would have been different.
Mason, 130 A.3d at 618; Reaves, 923 A.2d at 1127; Stewart, 84 A.3d at
707.

Where, as here, trial counsel’s error is a failure to provide proper

representation with respect to the defendant’s sentencing, the prejudice
element requires that the defendant show a reasonable probability that the
action that counsel failed to take would have resulted in a more favorable
sentence. Reaves, 923 A.2d at 1131-32; Presley, 193 A.3d at 444-45.
Here, there was no reasonable probability that ordering a mental health
evaluation would have resulted in a different sentence in CR-6203-2014. As
Appellant concedes, the 6-to-18 year sentence was a negotiated sentence that
required no evaluation of sentencing factors. Appellant’s Brief at 8, 10.
Moreover, prior to accepting the plea and imposing sentence, the trial court

-8-

APP 8

J-S42038-19

was provided information concerning Appellant’s serious mental health issues,
including the fact he suffered from schizophrenia and alcoholism, had suffered
a stroke, and was not receiving his medications. N.T., 6/8/15, at 5-8, 20-21,
23-24.

Appellant does not point to any information that a mental health

evaluation would have provided the trial court concerning Appellant’s mental
health or impairments beyond the information that it in fact received that
could have caused the trial court to reject the negotiated sentence or affect
its determination of an appropriate sentence. Appellant does not contend that
additional information from a mental health evaluation would have caused the
trial court to reject his guilty plea as involuntary. Indeed, Appellant does not
assert that his plea was involuntary or seek to have his plea set aside; rather
the only prejudice that he argues is the possible effect on his violation of
probation sentences and the only relief that he seeks is resentencing in the
violation of probation cases. Appellant’s Brief at 12-13.
Because Appellant’s PCRA petitions in CR-1918-2010 and CR-97272011 were untimely and Appellant failed to show that trial counsel’s alleged
error caused him prejudice in CR-6203-2014, we affirm the PCRA court’s
orders dismissing Appellant’s PCRA petitions.
Orders affirmed.
Judge Ott did not participate in the consideration or decision of these
matters.

-9-

APP 9

J-S42038-19

Judgment Entered.

Joseph D. Seletyn, Esq.
Prothonotary

Date: 8/25/20

- 10 -

APP 10

APPENDIX B

APP 11

APP 12

APP 13

APP 14

APP 15

APP 16

APP 17

IN THE SUPREME COURT OF PENNSYLVANIA
EASTERN DISTRICT

COMMONWEALTH OF PENNSYLVANIA,
Respondent

v.

SAMUEL EADDY,
Petitioner

: No. 349 EAL 2020
:
:
: Petition for Allowance of Appeal
: from the Order of the Superior Court
:
:
:
:
:
:

ORDER

PER CURIAM
AND NOW, this 9th day of March, 2021, the Petition for Allowance of Appeal is
DENIED.

APPENDIX C

APP 18

